No. 20-__
IN THE

Supreme Court of the United States
_________________________

ILIFE TECHNOLOGIES, INC.,

Petitioner,
v.
NINTENDO OF AMERICA, INC.,
Respondent.
_________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
_________________________

PETITION FOR A WRIT OF CERTIORARI
_________________________

MICHAEL C. WILSON
Counsel of Record
WILLIAM A. MUNCK
S. WALLACE DUNWOODY
SHAIN A. KHOSHBIN
JORDAN C. STRAUSS
CHASE A. COBERN
MUNCK WILSON MANDALA LLP
12770 Coit Road, Suite 600
Dallas, TX 75251
mwilson@munckwilson.com

Counsel for Petitioner

i
QUESTIONS PRESENTED
The questions presented are the same as those
presented in the petition for a writ of certiorari filed
in connection with American Axle & Manufacturing,
Inc. v. Neapco Holdings, LLC, No. 20-891:
1. What is the appropriate standard for determining whether a patent claim is “directed to” a patent-ineligible concept under step 1 of the Court’s
two-step framework for determining whether an invention is eligible for patenting under 35 U.S.C.
§ 101?
2. Is patent eligibility (at each step of the Court’s
two-step framework) a question of law for the court
based on the scope of the claims or a question of fact
for the jury based on the state of art at the time of
the patent?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner iLife Technologies, Inc. has a parent
company, iLife Solutions, Inc. No publicly held company owns more than 10 percent of petitioner’s
stock.

iii
RELATED PROCEEDINGS
The following proceedings are directly related to
this case within the meaning of Rule 14.1(b)(iii):
•

iLife Technologies, Inc. v. Nintendo of America, Inc., No. 13-cv-4987, U.S. District Court
for the Northern District of Texas. Judgment
entered Jan. 17, 2020.

•

iLife Technologies, Inc. v. Nintendo of America, Inc., No. 20-1477, U.S. Court of Appeals
for the Federal Circuit. Judgment entered
Jan. 13, 2021.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
CORPORATE DISCLOSURE STATEMENT .......... ii
RELATED PROCEEDINGS .................................... iii
TABLE OF CONTENTS ........................................... iv
TABLE OF AUTHORITIES ...................................... v
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISION ....................................... 1
INTRODUCTION ...................................................... 2
STATEMENT ............................................................. 3
REASONS FOR GRANTING THE PETITION ........ 7
CONCLUSION ......................................................... 15
APPENDICES
APPENDIX A — OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, DATED
JANUARY 13, 2021 ................................................. 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS, DATED
JANUARY 17, 2020 ................................................. 9a

v
TABLE OF AUTHORITIES
CASES........................................................... PAGE(S)
Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208 (2014) ................................. 9, 10, 14
Am. Axle & Mfg., Inc. v. Neapco Holdings LLC,
966 F.3d 1347 (Fed. Cir. 2020) ...................... 5, 13
Am. Axle & Mfg., Inc. v. Neapco Holdings LLC,
967 F.3d 1285 (Fed. Cir. 2020) .................. passim
Bilski v. Kappos,
561 U.S. 593 (2010) ..................................... 11, 12
Bostock v. Clayton Cty. Ga.,
140 S. Ct. 1731 (2020) ....................................... 11
Carr v. United States,
560 U.S. 438 (2010) ..................................... 10, 11
Corning v. Burden,
56 U.S. (15 How.) 252 (1853)............................. 14
Diamond v. Diehr,
450 U.S. 175 (1981) ..................................... 11, 14
Rotkiske v. Klemm,
140 S. Ct. 355 (2019) ......................................... 10
Sebelius v. Cloer,
569 U.S. 369 (2013) ........................................... 10
STATUTES
28 U.S.C. § 1254(1).................................................. 1
35 U.S.C. § 101 .............................................. passim
35 U.S.C. § 112 ................................................ 12, 13

1
Petitioner, iLife Technologies, Inc. (iLife), respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Federal Circuit in this case. As explained further below, iLife submits that this petition should be
held pending the disposition of the petition for a writ
of certiorari seeking review of the Federal Circuit’s
decision in American Axle & Manufacturing, Inc. v.
Neapco Holdings LLC, 967 F.3d 1285 (Fed. Cir.
2020). See No. 20-891.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a-8a)
is not published in the Federal Reporter but is reprinted at 839 Fed. Appx. 534. The district court’s
post-trial order granting judgment as a matter of law
in favor of respondent (App. 9a-22a) is unreported.
JURISDICTION
The judgment of the court of appeals was entered on January 13, 2021. On March 19, 2020, this
Court extended the time within which to file any petition for a writ of certiorari due on or after that date
to 150 days from the date of the lower-court judgment. That order extended the deadline for filing
this petition to June 14, 2021. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION
35 U.S.C. § 101 provides: “Whoever invents or
discovers any new and useful process, machine,
manufacture, or composition of matter, or any new
and useful improvement thereof, may obtain a patent therefor, subject to the conditions and requirements of this title.”

2
INTRODUCTION
Section 101 of the Patent Act makes “any new
and useful improvement” of a “process” or “machine”
(among other things) eligible for patent protection.
In American Axle & Manufacturing, Inc. v. Neapco
Holdings LLC, 967 F.3d 1285 (Fed. Cir. 2020), a divided panel of the Federal Circuit held that patent
claims covering an improved manufacturing process
were ineligible for patenting under § 101—not based
on the statutory text of § 101—but based on the majority’s finding that the claims were not sufficiently
“specific,” invoked “nothing more” than an atextual
“exception” to patent eligibility, and recited no “real
inventive work.” The court of appeals made each of
those findings as a matter of law. After the full Federal Circuit split 6-6 over whether to rehear the case
en banc, American Axle filed a petition for a writ of
certiorari, seeking review of: (1) the “appropriate
standard for determining whether a patent claim is
‘directed to’ a patent-ineligible concept”; and
(2) whether patent eligibility is “a question of law for
the court based on the scope of the claims or a question of fact for the jury based on the state of art at
the time of the patent.” No. 20-891 Pet. i.
Last month, this Court invited the Acting Solicitor General to file a brief in American Axle expressing the views of the United States. In response to
prior requests from this Court regarding § 101, the
United States has noted that “recent decisions have
fostered uncertainty concerning th[e] substantive
Section 101 standards,” No. 18-415 U.S. Br. 10, and
has urged a return to “the application of traditional
tools of statutory construction to the language that
Congress enacted” by “interpreting Section 101’s

3
terms in light of statutory context, history, and constitutional purpose.” No. 18-817 U.S. Br. 21.
The Court’s disposition of the petition in American Axle will affect the proper disposition of this petition, which presents the same questions. Like the
patent holder in American Axle, iLife patented a type
of invention—an improved machine for motion detection—falling squarely within the subject matter that
§ 101 expressly makes patentable. As in American
Axle, the Federal Circuit conditioned patent eligibility on claim specificity, reduced the invention to
“nothing more” than a patent-ineligible concept, and
deemed it not “inventive”—all as a matter of law.
iLife respectfully submits that this petition
should be held pending the Court’s disposition of the
American Axle case, and then disposed of accordingly. Alternatively, this petition should be granted.
STATEMENT
1. iLife owns U.S. Patent No. 6,864,796 (the ’796
patent), which claims a motion detection system in a
physical device. The motion detector includes a particular type of sensor that detects changes in acceleration (i.e., an accelerometer) and a processor configured to “evaluat[e] relative movement of a body
based on both dynamic acceleration (e.g., vibration,
body movement) and static acceleration (i.e., the position of a body relative to earth).” App. 2a. The patent specification explains that by “advantageously”
sensing and processing both static and dynamic acceleration as a function of specific movement characteristics, the claimed motion-detection device improved upon “conventional detectors” that were “directed to measuring one or the other, but not both.”

4
’796 patent at 1:30-2:17, 3:25-32. As a result, iLife’s
improved motion detector could more reliably distinguish between different body movements with similar acceleration profiles like lying down and falling.
Id. at 12:12-20. iLife’s only asserted claim (claim 1)
recites:
A system within a communications device
capable of evaluating movement of a body
relative to an environment, said system
comprising:
a sensor, associable with said body, that
senses dynamic and static accelerative phenomena of said body, and
a processor, associated with said sensor, that
processes said sensed dynamic and static accelerative phenomena as a function of at
least one accelerative event characteristic to
thereby determine whether said evaluated
body movement is within environmental tolerance
wherein said processor generates tolerance
indicia in response to said determination;
and
wherein said communication device transmits said tolerance indicia.
2. iLife sued Nintendo of America Inc. (Nintendo) asserting that Nintendo infringed claim 1. Nintendo moved for summary judgment asserting that
claim 1 was ineligible for patenting under 35 U.S.C.
§ 101. “After the court declined to decide that issue,
the parties continued to trial, agreeing not to present
eligibility questions to the jury.” App. 3a. After the

5
jury returned a verdict in iLife’s favor, Nintendo
moved for judgment as a matter of law, renewing its
argument that claim 1 was patent-ineligible. The
district court granted Nintendo’s motion, holding
that claim 1 was directed to the patent-ineligible
concept of “gathering, processing, and transmitting
information,” and failed to recite an inventive concept. App. 4a, 13a. iLife appealed the district court’s
patent-ineligibility finding.
3. Shortly before the completion of briefing on
iLife’s appeal, a divided panel of the Federal Circuit
issued its modified decision in American Axle. The
patent in that case claimed an improvement to an
automobile driveshaft manufacturing process by “the
tuning of a liner in order to produce frequencies that
dampen both the shell mode and bending mode vibrations simultaneously.” 967 F.3d at 1289. The majority held that American Axle’s patent claimed
“nothing more” than the use of a patent-ineligible
concept—“Hooke’s law.” Id. at 1289. Although the
American Axle claims recited several physical limitations apart from the purported ineligible concept, id.
at 1290, the Federal Circuit held, as a matter of law,
that the claims did not “have the specificity required
to transform the claim from one claiming only a result to one claiming a way of achieving it.” Id. at
1296. The court of appeals derived this “specificity”
requirement from its precedents “involv[ing] the abstract idea category,” finding that “the same principle necessarily applies in natural law cases.” Id. at
1297. The Federal Circuit also determined, again as
a matter of law, that the claims recited no “real inventive work.” Id. at 1299. On the same day that the
American Axle panel issued its modified opinion, the

6
full Federal Circuit issued an evenly divided (6-6)
decision denying en banc review in the same case.
See Am. Axle & Mfg., Inc. v. Neapco Holdings LLC,
966 F.3d 1347 (Fed. Cir. 2020).
4. In January 2021, the Federal Circuit affirmed
the district court’s patent-ineligibility finding in this
case. App. 1a. The court of appeals recognized that
iLife’s patent asserted an improvement to a physical
“motion sensor system” by “evaluat[ing] relative
movement of a body based on both dynamic … and
static acceleration.” App. 2a, 5a. Yet the Federal Circuit again reduced the claimed invention to “nothing
more” than a patent-ineligible concept—here, “gathering[,] processing[,] and transmitting data.” App.
6a. Just as in American Axle, the Federal Circuit
conditioned eligibility on specificity, holding iLife’s
patent claim ineligible because it purportedly
“[f]ail[ed] to provide any concrete detail for performing the associated functions,” did “not focu[s] on a
specific means or method to improve motion sensor
systems,” and was not “directed to a specific physical
configuration of sensors.” App. 4a-5a. The Federal
Circuit also concluded as a matter of law that claim
1 “fail[ed] to recite an inventive concept” because it
“d[id] not recite any unconventional means or method[.]” App. 7a.
5. Shortly before issuance of the Federal Circuit’s decision in this case, the patent holder in
American Axle filed a petition for a writ of certiorari
seeking this Court’s review of two questions:
1. What is the appropriate standard for
determining whether a patent claim is “directed to” a patent-ineligible concept under

7
step 1 of the Court’s two-step framework for
determining whether an invention is eligible
for patenting under 35 U.S.C. § 101?
2. Is patent eligibility (at each step of the
Court’s two-step framework) a question of law
for the court based on the scope of the claims
or a question of fact for the jury based on the
state of art at the time of the patent?
See No. 20-891 Pet. i. Last month, the Court invited
the Acting Solicitor General to file a brief in American Axle expressing the views of the United States.
REASONS FOR GRANTING THE PETITION
This petition presents the same questions as the
petition for a writ of certiorari filed in American Axle. See No. 20-891. Accordingly, this petition should
be held pending final disposition of American Axle,
then disposed of as appropriate in light of that decision.
1. If the Court grants the petition in American
Axle (or any other case presenting the same questions), the Court’s decision will determine the proper
disposition of this case.
For example, if the Court clarifies, refines, or
modifies “the appropriate standard for determining
whether a patent claim is ‘directed to’ a patentineligible concept,” the Federal Circuit’s judgment in
this case will have to be vacated and the case remanded for further consideration under the standard articulated by the Court. Both in this case and in
American Axle, the Federal Circuit held that patent
claims were “directed to” patent-ineligible concepts
because they purportedly contained “nothing more”

8
than those concepts. Compare App. 6a (“[Claim 1] is,
however, directed to an abstract idea because it contains nothing more than the idea of gathering processing and transmitting data.”), with Am. Axle, 967
F.3d at 1298 (“This holding as to step 1 of Alice extends only where, as here, a claim on its face clearly
invokes a natural law, and nothing more, to achieve
a claimed result.”). If the Court ultimately rejects or
clarifies the Federal Circuit’s so-called “Nothing
More test” in American Axle, that ruling would require reconsideration of the instant case as well. 967
F.3d at 1304 (Moore, J., dissenting).1 Furthermore, if
the Court were to follow the Solicitor General’s most
recent recommendation for a return to the Court’s
traditional “approach of interpreting Section 101’s
terms in light of statutory context, history, and constitutional purpose,”2 such a ruling would require
Judge Moore, who authored the decision below finding
“nothing more than the idea of gathering processing and
transmitting data,” App. 6a, dissented from the panel decision
in American Axle based in part on “the majority’s application of
its new Nothing More test” for which she argued that “[t]here is
simply no justification … other than result-oriented judicial
activism.” 967 F.3d at 1305.
1

2 No. 18-817 U.S. Br. 21 (“[U]nlike the Court’s more recent
attempts to articulate and apply atextual exceptions to Section
101’s coverage, the Court’s pre-Bilski approach of interpreting
Section 101’s terms in light of statutory context, history, and
constitutional purpose involved the application of traditional
tools of statutory construction to the language that Congress
enacted”); see also id. at 17-20 (nothing that “[t]he present difficulties in applying Section 101 ultimately derive in substantial part from the Bilski Court’s reconceptualization of the limits on Section 101’s coverage as freestanding ‘exceptions’ rather
than as context-sensitive interpretations of the provision’s
terms”).

9
that the judgment in this case be vacated and the
case remanded to the Federal Circuit.
Vacatur and remand of this case would also be
required if the Court were to determine in American
Axle that patent eligibility—at either step of the
Court’s two-step framework—involves a “question of
fact for the jury based on the state of art at the time
of the patent.” As in American Axle, no issue of patent eligibility in this case was submitted to a jury or
decided by a district court based on findings of fact
and conclusions of law. Compare App. 3a (noting
that the district court decided patent-eligibility on a
motion “for judgment as a matter of law”), with Am.
Axle, 967 F.3d at 1291 (noting district court decided
patent-eligibility on a “motion for summary judgment”). Should the Court determine that questions
of fact impact any aspect of the patent eligibility inquiry, that ruling will require reconsideration of this
case.
2. The Federal Circuit’s § 101 analysis in this
case reflects the same errors that it made in American Axle.
First, the Federal Circuit in both this case and
American Axle applied an erroneous “nothing more”
test to determine whether patent claims are “directed to” patent-eligible subject matter under § 101.
App. 6a; Am. Axle, 967 F.3d at 1300. By ignoring
physical claim limitations and reducing iLife’s mechanical invention to “nothing more” than a disembodied patent-ineligible concept—“the idea of gathering processing and transmitting data”—the Federal
Circuit disregarded this Court’s admonition that “an
invention is not rendered ineligible for patent simply

10
because it involves a[] [patent-ineligible] concept”
because “applications of such concepts to a new and
useful end … remain eligible for patent protection.”
Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208,
217 (2014) (cleaned up). Like the claims in American
Axle, claim 1 of iLife’s patent “does not preclude all
use of, or even expressly recite” the broad idea of
gathering, processing, and transmitting data, and “it
does expressly articulate the ‘machinery’ used to
achieve the [claimed] result.” 967 F.3d at 1308-09
(Moore, J., dissenting). Because many inventions
“[a]t some level … embody, use, reflect, rest upon, or
apply” the concept of gathering, processing, and
transmitting data, the Federal Circuit’s application
of the “exception” to § 101 threatens to “swallow all
of patent law.” Alice, 573 U.S. at 217.
The Federal Circuit’s approach to § 101 in both
cases illustrates how far the doctrine of patent eligibility has drifted from its statutory mooring. Both in
this case and American Axle, the Federal Circuit engaged in no inquiry whatsoever regarding whether
the patent claims recited “any new and useful process, machine, … or any new and useful improvement thereof” within the plain meaning of § 101. Instead, the court of appeals in both cases began and
ended its analysis with the application of an “implicit exception.” Am. Axle, 967 F.3d at 1292; App. 3a-4a.
That approach is unparalleled in its operation entirely outside, and without any regard to, the controlling statutory text. It cannot be reconciled with
this Court’s approach to statutory interpretation in
every other area of law. See, e.g., Rotkiske v. Klemm,
140 S. Ct. 355, 360-61 (2019) (“It is a fundamental
principle of statutory interpretation that ‘absent

11
provision[s] cannot be supplied by the courts.’ To do
so ‘is not a construction of a statute, but, in effect, an
enlargement of it by the court.’”) (citations omitted);
Sebelius v. Cloer, 569 U.S. 369, 376 (2013) (“As in
any statutory construction case, we start, of course,
with the statutory text, and proceed from the understanding that unless otherwise defined, statutory
terms are generally interpreted in accordance with
their ordinary meaning.”) (cleaned up); Carr v. United States, 560 U.S. 438, 458-59 (2010) (Scalia, J.,
concurring) (“When the words of a statute are unambiguous, then, this first canon is also the last: judicial inquiry is complete.”). Patent law is no exception. See, e.g., Diamond v. Diehr, 450 U.S. 175, 182
(1981) (“In cases of statutory construction, we begin
with the language of the statute…. [I]n dealing with
the patent laws, we have more than once cautioned
that courts should not read into the patent laws limitations and conditions which the legislature has not
expressed.”) (cleaned up); Bilski v. Kappos, 561 U.S.
593, 603 (2010) (“In patent law, as in all statutory
construction, unless otherwise defined, words will be
interpreted as taking their ordinary, contemporary,
common meaning.”) (cleaned up).
The path to restoring objectivity and stability to
§ 101 is clear: “When the express terms of a statute
give us one answer and extratextual considerations
suggest another, it’s no contest[, as] [o]nly the written word is the law, and all persons are entitled to
its benefit.” Bostock v. Clayton Cty. Ga., 140 S. Ct.
1731, 1737 (2020). As the federal government observed in a recent invitation brief, “courts construing
Section 101 should ‘begin with the language’ but
should also bear in mind the provision’s history and

12
context,” as that “interpretative method place[s]
courts on familiar judicial terrain, even if it d[oes]
not make every case an easy one.” No. 18-817 U.S.
Br. 21.3 Under the express terms of § 101, the eligibility of iLife’s improved motion-detection “machine”
and American Axle’s improved driveshaft manufacturing “process” should have been no contest.
Second, by conditioning patent eligibility on
claim specificity in both cases, the Federal Circuit
transformed a “threshold” legal inquiry concerning
the types of subject matter statutorily made eligible
for patenting into a factbound, subjective exploration
on which no patent holder or accused infringer can
predictably rely.4 As in American Axle, the Federal
Circuit held iLife’s patent claim ineligible based on a
purported failure to recite a “specific means or method” for achieving a claimed result. App. 5a; Am. Axle,
967 F.3d at 1297 & n.7. The court of appeals did so
despite its own precedent upholding the patenteligibility of inventions in the same field of technology, for no other reason than that it considered the
claims in those cases more “particular” and “specific.” App. 5a.

According to the federal government, the atextual approach to § 101 is only of recent origin. See No. 18-415 U.S. Br.
3-4 (noting that “[u]ntil 2010, the Court’s decisions … were best
understood as interpreting the specific terms … contained in
Section 101’s list of patent-eligible inventions, based in part on
history and statutory context” but that “[t]he Court’s recent
decisions, however, have applied a different approach”).
3

4 See Bilski, 561 U.S. at 602 (noting patent eligibility under § 101 “is only a threshold test” that precedes questions of
patentability under 35 U.S.C. §§ 102, 103, and 112).

13
Like the “nothing more” test, the Federal Circuit’s “specificity” requirement is a judicial creation
that cannot be “implied” from the text of § 101. In
fact, as several members of the court of appeals now
recognize, the Federal Circuit’s search for specificity
conflates legal questions of eligibility under 35
U.S.C. § 101 with factual questions of enablement
and written description under 35 U.S.C. § 112, but
without the latter’s attendant consideration of the
knowledge of skilled artisans.5 See, e.g., Am. Axle,
967 F.3d at 1305, 1316 (Moore, J., dissenting) (noting that the court of appeals “has imbued § 101 with
a new superpower—enablement on steroids,” which
“is confusing, converts fact questions into legal ones
and eliminates the knowledge of a skilled artisan”);
Am. Axle, 966 F.3d at 1359 (Newman, J., dissenting
from denial of en banc review) (“Breadth of claiming
is a matter of the scope and content of the description and enablement in the specification, considered
in light of the prior art[.]”); id. at 1363 (Stoll, J., dissenting from denial of en banc review) (“The majority’s reasoning also introduces further uncertainty by
blurring the line between patent eligibility and enablement.”). Those observations are supported by the
statutory text of § 101, which expressly makes eligibility “subject to the [other] conditions and requirements of this title,” including § 112.

5 Nintendo separately challenged iLife’s patent on enablement and written-description grounds at trial, both of which
the jury rejected. The trial court declined to disturb those aspects of the verdict, App. 22a, and the Federal Circuit did not
reach the § 112 issues on appeal.

14
Third, the Federal Circuit’s application of the
§ 101 exception to iLife’s invention—a physical motion detector with specific hardware and software—
exemplifies yet another historically-eligible mechanical invention now disqualified from the patent system under modern § 101 jurisprudence. Like American Axle’s automobile driveshaft manufacturing process that was undisputedly a “new and useful process” within the meaning of § 101 that had “historically been eligible to receive the protection of our patent laws,” Diehr, 450 U.S. at 184, iLife’s motion detector comprised an “improvement” to a “machine”
long recognized as patentable. See Corning v. Burden, 56 U.S. (15 How.) 252, 267 (1853) (“The term
machine includes every mechanical device or combination of mechanical powers and devices to perform
some function and produce a certain effect or result.”). No one contended that iLife’s patent
preempted any “basic tool[] of scientific and technological work,” “building block[] of human ingenuity,”
or “fundamental economic practice.” Alice, 573 U.S.
at 216, 220. Nor was it ever argued or determined
that iLife’s patent would preempt the asserted ineligible concept of “gathering, processing, and transmitting information.” Nevertheless, under the Federal Circuit’s expanding categories of inventions subject to an “implicit exception” to § 101, historicallyeligible inventions that at some level engage in
“gathering, processing, and transmitting information” can no longer be patented.
In sum, because the Court’s disposition of the petition in American Axle will affect the proper disposition in this case, this petition should be held pending
the disposition of American Axle (or another case ad-

15
dressing the same questions), and then disposed of
as appropriate in light of the decision in that case.
CONCLUSION
The petition for a writ of certiorari should be
held pending disposition of the American Axle petition (No. 20-891), and any further proceedings in
this Court, and then disposed of as appropriate in
light of the Court’s decision in that case. In the alternative, this petition should be granted.
Respectfully submitted,
MICHAEL C. WILSON
Counsel of Record
WILLIAM A. MUNCK
S. WALLACE DUNWOODY
SHAIN A. KHOSHBIN
JORDAN C. STRAUSS
CHASE A. COBERN
MUNCK WILSON MANDALA LLP
12770 Coit Road, Suite 600
Dallas, TX 75251
mwilson@munckwilson.com
JUNE 14, 2021

APPENDICES

1a
APPENDIX A — OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT,
DATED JANUARY 13, 2021
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-1477
ILIFE TECHNOLOGIES, INC.,
Plaintiff-Appellant,
v.
NINTENDO OF AMERICA, INC.,
Defendant-Appellee.
OPINION ISSUED: January 13, 2021
Appeal from the United States District Court for the
Northern District of Texas in No. 3:13-cv-04987-M,
Chief Judge Barbara M.G. Lynn
Before MOORE, REYNA, and CHEN, Circuit Judges
MOORE, Circuit Judge.
iLife Technologies, Inc., appeals a Northern District of Texas order holding that claim 1 of U.S. Patent No. 6,864,796 is directed to patent ineligible
subject matter under 35 U.S.C. § 101. We affirm.

2a
Appendix A
BACKGROUND
iLife owns the ’796 patent, which is directed to a
motion detection system that evaluates relative
movement of a body based on both dynamic acceleration (e.g., vibration, body movement) and static acceleration (i.e., the position of a body relative to
earth). See ’796 patent at Abstract; 1:62–67; 3:26–32.
Claim 1 recites:
1. A system within a communications device
capable of evaluating movement of a body
relative to an environment, said system
comprising:
a sensor, associable with said body, that
senses dynamic and static accelerative phenomena of said body, and
a processor, associated with said sensor, that
processes said sensed dynamic and static accelerative phenomena as a function of at
least one accelerative event characteristic to
thereby determine whether said evaluated
body movement is within environmental tolerance
wherein said processor generates tolerance
indicia in response to said determination;
and
wherein said communication device transmits said tolerance indicia.
iLife sued Nintendo asserting that Nintendo infringed claim 1. Nintendo moved for summary judgment asserting that claim 1 was directed to patent

3a
Appendix A
ineligible subject matter. After the court declined to
decide that issue, the parties continued to trial,
agreeing not to present eligibility questions to the
jury. Following a jury verdict in iLife’s favor, Nintendo moved for judgment as a matter of law
(“JMOL”), renewing its assertions that claim 1 was
directed to ineligible subject matter. The court
granted Nintendo’s motion, holding that claim 1 was
directed to the abstract idea of “gathering, processing, and transmitting information” and failed to
recite an inventive concept. J.A. 25. iLife appeals.
We
have
jurisdiction
under
28
U.S.C.
§ 1295(a)(1).
DISCUSSION
We review a grant of a motion for JMOL under
regional circuit law. Lucent Techs., Inc. v. Gateway,
Inc., 580 F.3d 1301, 1309 (Fed. Cir. 2009). The Fifth
Circuit reviews an order granting JMOL de novo.
Hurst v. Lee Cty., Miss., 764 F.3d 480, 483 (5th Cir.
2014). We also review a district court’s determination of patent eligibility under 35 U.S.C. § 101 de novo. DDR Holdings, LLC v. Hotels.com, L.P., 773 F.3d
1245, 1255 (Fed. Cir. 2014).
We apply a two-step framework for “distinguishing patents that claim laws of nature, natural phenomena, and abstract ideas from those that claim
patent-eligible applications of those concepts.” Alice
Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208, 217,
134 S.Ct. 2347, 189 L.Ed.2d 296 (2014). “First, we
determine whether the claims at issue are directed
to” a patent-ineligible concept, such as an abstract
idea. Id. If they are, we examine “the elements of

4a
Appendix A
[each] claim to determine whether it contains an ‘inventive concept’ sufficient to ‘transform’ the claimed
abstract idea into a patent-eligible application.” Id.
at 221, 134 S.Ct. 2347 (quoting Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 72, 79–
80, 132 S.Ct. 1289, 182 L.Ed.2d 321 (2012)). If the
elements involve “well-understood, routine, [and]
conventional activity previously engaged in by researchers in the field,” Mayo, 566 U.S. at 73, 132
S.Ct. 1289, they do not constitute an “inventive concept.”
I. Alice Step One
At step one, the district court held that claim 1 is
directed to the abstract idea of “gathering, processing, and transmitting information.” J.A. 25. We
agree. Claim 1 recites a motion sensor system that
evaluates and communicates the relative movement
of a body using static and dynamic acceleration information collected from sensors. Failing to provide
any concrete detail for performing the associated
functions, however, claim 1 merely amounts to a system capable of sensing information, processing the
collected information, and transmitting processed
information.
We have routinely held that claims directed to
gathering and processing data are directed to an abstract idea. See Elec. Power Grp., LLC v. Alstom
S.A., 830 F.3d 1350, 1354 (Fed. Cir. 2016); SAP Am.,
Inc. v. InvestPic, LLC, 898 F.3d 1161, 1167 (Fed. Cir.
2018) (holding claims directed to the abstract idea of
“selecting certain information, analyzing it using
mathematical techniques, and reporting or display-

5a
Appendix A
ing the results of the analysis”); Content Extraction
& Transmission LLC v. Wells Fargo Bank, Nat.
Ass’n, 776 F.3d 1343, 1347 (Fed. Cir. 2014) (holding
claims directed to the “abstract idea of 1) collecting
data, 2) recognizing certain data within the collected
data set, and 3) storing that recognized data in a
memory”).
iLife argues claim 1 is not directed to an abstract
idea because it recites a physical system that incorporates sensors and improved techniques for using
raw sensor data like the claims we held eligible in
Thales Visionix Inc. v. United States, 850 F.3d 1343
(Fed. Cir. 2017) and CardioNet, LLC v. InfoBionic,
Inc., 955 F.3d 1358 (Fed. Cir. 2020). But in Thales,
the claims recited a particular configuration of inertial sensors and a specific choice of reference frame
in order to more accurately calculate position and
orientation of an object on a moving platform. 850
F.3d at 1349. We held the claims were not directed
to an abstract idea because they sought to protect
“only the application of physics to the unconventional configuration of sensors as disclosed.” Id. Likewise, the claims in CardioNet were not abstract because they focused on a specific means or method
that improved cardiac monitoring technology, improving the detection of, and allowing more reliable
and immediate treatment of, atrial fibrillation and
atrial flutter. 955 F.3d at 1368. In contrast, claim 1
of the ’796 patent is not focused on a specific means
or method to improve motion sensor systems, nor is
it directed to a specific physical configuration of sensors. It merely recites a motion sensor system that

6a
Appendix A
evaluates movement of a body using static and dynamic acceleration information.
While we agree with the district court that these
claims are directed to the abstract idea of gathering,
processing and transmitting data, the district court
erred to the extent that it incorporated conventionality of claim elements at step 1. See, e.g., J.A. 26
(“Nothing in claim 1, understood in light of the specification, requires anything other than conventional
sensors and processors performing ‘conventional activit[ies] previously known to the industry.’ ” (quoting Alice, 573 U.S. at 225, 134 S.Ct. 2347 (quoting
Mayo, 566 U.S. at 73, 132 S.Ct. 1289))). The conventionality of the claim elements is only considered at
step two if the claims are deemed at step 1 to be directed to a patent ineligible concept, such as an abstract idea. Alice, 573 U.S. at 217, 225, 134 S.Ct.
2347. A claim is not directed to an abstract idea
simply because it uses conventional technology. This
claim is, however, directed to an abstract idea because it contains nothing more than the idea of
gathering processing and transmitting data.
II. Alice Step Two
At step two, we “consider the elements of each
claim both individually and ‘as an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Alice, 573 U.S. at 217, 134 S.Ct.
2347 (quoting Mayo, 566 U.S. at 78–79, 132 S.Ct.
1289). We have explained that this step is satisfied
when the claim elements “involve more than performance of ‘well-understood, routine, [and] conven-

7a
Appendix A
tional activities previously known to the industry.’”
Content Extraction, 776 F.3d at 1347–48 (quoting Alice, 573 U.S. at 225, 134 S.Ct. 2347); see also Aatrix
Software, Inc. v. Green Shades Software, Inc., 882
F.3d 1121, 1128 (Fed. Cir. 2018) (collecting cases).
As the district court held, the elements of claim
1, considered individually and as an ordered combination, fail to recite an inventive concept. J.A. 28.
Aside from the abstract idea, the claim recites only
generic computer components, including a sensor, a
processor, and a communication device. The specification’s description of these elements confirms they
are generic. See, e.g., ’796 patent at 2:46–50 (communication device includes “cellular phones, ... laptops, computers, ... and other similar types of communications equipment”); 2:64–67 (sensor broadly
means “a device that senses one or more absolute
values, changes in value ... of at least the sensed accelerative phenomena”); 4:34–38 (processor means
“any device, system, or part thereof that controls at
least one operation”). iLife argues that configuring
an acceleration-based sensor and processor to detect
and distinguish body movement as a function of both
dynamic and static acceleration is an inventive concept. Appellant’s Br. at 53–54. But the specification
clarifies sensors (e.g., accelerometers) “that measure
both static and dynamic acceleration [were] known.”
’796 patent at 2:1–2. And unlike the claims in Thales, claim 1 does not recite any unconventional
means or method for configuring or processing that
information to distinguish body movement based on
dynamic and static acceleration. Therefore, we con-

8a
Appendix A
clude that claim 1’s mere call for sensing and processing static and dynamic acceleration information
using generic components does not transform the nature of claim 1 into patent eligible subject matter.
See Elec. Power, 830 F.3d at 1355; see also BSG Tech
LLC v. Buyseasons, Inc., 899 F.3d 1281, 1290–91
(Fed. Cir. 2018) (“If a claim’s only ‘inventive concept’
is the application of an abstract idea using conventional and well-understood techniques, the claim has
not been transformed into a patent-eligible application of an abstract idea.”). Accordingly, we hold claim
1 is directed to patent-ineligible subject matter.
CONCLUSION
We have considered iLife’s remaining arguments
and find them unpersuasive. For the foregoing reasons, we conclude that claim 1 of the ’796 patent is
ineligible under § 101, and, therefore, we affirm.
AFFIRMED

9a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS,
DATED JANUARY 17, 2020
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
C.A. No. 3:13-cv-4987-M
ILIFE TECHNOLOGIES, INC.,
Plaintiff,
v.
NINTENDO OF AMERICA, INC.,
Defendant.
ORDER
LYNN, U.S. District Judge:
Before the Court are the Motion for Judgment as
a Matter of Law and Motion for New Trial (ECF No.
356), filed by Defendant Nintendo of America, Inc.,
and the Motion for Entry of Judgment (ECF No.
349), filed by Plaintiff iLife Technologies, Inc. For
the reasons stated below, the Court grants Defendant’s Motion for Judgment as a Matter of Law, conditionally denies its alternative Motion for a New
Trial, and denies Plaintiff’s Motion for Entry of
Judgment.

10a
Appendix B
I.

Background

Plaintiff sued Defendant for infringing U.S. Patent No. 6,864,796. Plaintiff argued that Defendant’s
Wii and Wii U devices, when used with certain video
games, infringed claim 1 of the ‘796 patent.
The ’796 patent generally discloses a system for
evaluating body movement relative to an environment. The system includes a sensor that detects dynamic and static accelerative phenomena of the
body.1 ’796 patent at 2:53–55. The sensor “senses one
or more absolute values, changes in value, or some
combination of the same” and “generates an output
signal to [a] processor.” Id. at 2:64–3:5, 5:46–52. The
processor then evaluates the signal to determine
whether the body is in an acceptable or unacceptable
state. Id. at 9:48–51. The patent describes acceptable
or unacceptable as within or beyond “tolerance.” Id.
Claim 1 provides:
A system within a communications device
capable of evaluating movement of a body
relative to an environment, said system
comprising:
a sensor, associable with said body, that
senses dynamic and static accelerative phenomena of said body, and

1 The specification distinguishes between “static acceleration, or gravity,” which is “a gauge of position,” versus “dynamic
acceleration (i.e., vibration, body movement, and the like).”
‘796 patent at 1:65–2:1.

11a
Appendix B
a processor, associated with said sensor, that
processes said sensed dynamic and static accelerative phenomena as a function of at
least one accelerative event characteristic to
thereby determine whether said evaluated
body movement is within environmental tolerance
wherein said processor generates tolerance
indicia in response to said determination;
and
wherein said communication device transmits said tolerance indicia.
Id. at 13:47–61.
The case was tried to a jury. The jury returned a
verdict, finding that Defendant infringed claim 1
with respect to the accused products. (ECF No. 342
at 25). The jury awarded Plaintiff $10,100,000 in
damages, as a lump sum reasonable royalty. (Id. at
29). The jury also found that the patent was not invalid due to the alleged lack of (1) an adequate written description or (2) enablement. (Id. at 26–27). Defendant moved for judgment as a matter of law.
(ECF No. 356). In the alternative, Defendant moved
for a new trial. (Id.).
II. Motion for Judgment as a Matter of Law
Defendant moves for judgment as a matter of
law, arguing that claim 1 is invalid for three reasons:
(1) claim 1 is directed to patent-ineligible subject
matter under 35 U.S.C. § 101, (2) claim 1 is indefinite under 35 U.S.C. § 112(b), and (3) claim 1 is inva-

12a
Appendix B
lid under 35 U.S.C. § 112(a) for lack of written description and enablement.2 (ECF No. 357 at 7–33).
Defendant also argues that the accused products do
not infringe claim 1. (Id. at 33–40). Because the
Court finds that claim 1 is invalid under 35 U.S.C. §
101, it will not expressly address Defendant’s other
invalidity or infringement arguments.
Section 101 of the Patent Act states: “[w]hoever
invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any
new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and requirements of this title.” 35 U.S.C. § 101.
The Supreme Court has established a two-step
framework to determine patent eligibility under §
101. Mayo Collaborative Servs. v. Prometheus Labs.,
Inc., 566 U.S. 66, 84 (2012). First, a court must determine whether the character of the relevant claims
is directed to a patent- ineligible concept, such as
laws of nature, natural phenomena, or abstract ideas. Alice Corp. Pty. Ltd. v. CLS Bank Intern., 573
U.S. 208, 217–18 (2014). If the character of the
claims is directed to a patent-ineligible concept, the
court must then consider the elements of each claim
both individually and “as an ordered combination” to
determine whether the elements “transform the na2 In its Motion for Summary Judgment, Defendant contended that claim 1 is invalid under 35 U.S.C. § 101 and indefinite under 35 U.S.C. § 112(b). (ECF No. 224). The Court carried these issues, and because they are matters of law, they
were not presented to the jury. (ECF No. 302).

13a
Appendix B
ture of the claim” into a patent-eligible matter. Id. at
217 (citing Mayo, 566 U.S. at 72–73). To save a patent at the second step, an inventive concept must be
evident in the claims. Synopsys, Inc. v. Mentor
Graphics Corp., 839 F.3d 1138, 1149 (Fed. Cir.
2016).
A. Step One
Claim 1 recites a system comprising conventional computer components performing various operations. ‘796 patent at 13:48–61. A sensor collects data,
i.e., “senses dynamic and static accelerative phenomena.” Id. at 13:51–52. A processor analyzes that
data, i.e., “processes said sensed dynamic and static
accelerative phenomena as a function of at least one
accelerative event characteristic to thereby determine whether said evaluated body movement is
within environmental tolerance.” Id. at 13:51–57. After analysis, the processor outputs variables, i.e.,
“tolerance indicia.” Id. at 13:58–69. A communication
device then transmits the tolerance indicia. Id. at
13:60–61. At its core, claim 1 is therefore directed to
the abstract idea of “gathering, processing, and
transmitting … information.” Elec. Power Grp., LLC
v. Alstom S.A., 830 F.3d 1350, 1355 (Fed. Cir. 2016);
see also SAP Am., Inc. v. InvestPic, LLC, 898 F.3d
1161, 1167 (Fed. Cir. 2018), cert. denied, 139 S. Ct.
2747 (2019); Smartflash LLC v. Apple Inc., 680 F.
App’x 977, 983 (Fed. Cir. 2017), cert. denied, 138 S.
Ct. 687 (2018) (“[M]erely storing, transmitting, retrieving, and writing data to implement an abstract
idea on a computer does not transform the nature of
the claim into a patent-eligible application.”).

14a
Appendix B
Claim 1 is not any less abstract because the information is of a specific type—dynamic and static
accelerative phenomena. See Elec. Power, 830 F.3d
at 1353 (“[W]e have treated collecting information,
including when limited to particular content (which
does not change its character as information), as
within the realm of abstract ideas.”). Analyzing the
information through some mathematical algorithm
and generating wholly new information is also “essentially [a] mental process[] within the abstractidea category.” Id. at 1354; see also Digitech Image
Techs., LLC v. Elecs. for Imaging, Inc., 758 F.3d
1344, 1351 (Fed. Cir. 2014) (“A process that employs
mathematical algorithms to manipulate existing information to generate additional information is not
patent eligible … even if the [output] is for a specific
purpose.”). Merely then transmitting “the results of
abstract processes of collecting and analyzing information, without more … is abstract as an ancillary
part of such collection and analysis.” Elec. Power,
830 F.3d at 1354.
Furthermore, an abstract idea implemented on
conventional computer components is still an abstract idea. See Bascom Glob. Internet Servs., Inc. v.
AT&T Mobility LLC, 827 F.3d 1341, 1348 (Fed. Cir.
2016); Shortridge v. Found. Constr. Payroll Serv.,
LLC, 655 F. App’x 848, 853 (Fed. Cir. 2016) (holding
ineligible a patent that implements an abstract idea
through “computer components . . . conventional and
known to the industry at the time of the patent”).
Nothing in claim 1, understood in light of the specification, requires anything other than conventional

15a
Appendix B
sensors and processors performing “conventional activit[ies] previously known to the industry.” Alice,
573 U.S. at 225 (quoting Mayo, 573 U.S. at 72); see
also ‘796 patent at 2:1–4 (disclosing that sensors
“measur[ing] both static and dynamic accelerative
phenomena are known” in the industry).3
A claim disclosing some improvement to the
functionality of conventional computer components,
however, may be patent-eligible under step one. For
example, in Thales Visionix Inc. v. United States, the
asserted claims recited a system for tracking the motion of an object relative to a moving platform, comprised of (1) inertial sensors mounted on the object
and the platform and (2) an unnamed element to receive the sensors’ signals and determine the orientation of the object. 850 F.3d 1343, 1345–46 (Fed. Cir.
2017). The system used conventional sensors. Id.
However, the Federal Circuit found the claims patent-eligible because they specified an “unconventional configuration of sensors,” which reduced errors in tracking motion. Id. at 1349; see also Enfish,
LLC v. Microsoft Corp., 822 F.3d 1327, 1336–37
(Fed. Cir. 2016) (holding that a claim disclosing a
method for improving computer search and retrieval
3 Evidence introduced at trial supports this finding. (See
Aug. 21, 2017, Trial Tr. at 118:23–119:2 (inventor of ‘796 patent testifying that processors were known at the time of invention and that Plaintiff purchased them from other companies);
id. at 116:16–21 (inventor testifying the same for sensors that
collected acceleration data); Aug. 22, 2017, Trial Tr. at 105:9–
11 (Plaintiff’s expert testifying that processors were well-known
at the time of invention)).

16a
Appendix B
using self-referential tables, which was a “specific
improvement to the way computers operate,” was not
directed to an abstract idea); Visual Memory LLC v.
NVIDIA Corp., 867 F.3d 1253, 1261–62) (Fed. Cir.
2017) (acknowledging that the claimed “programmable operational characteristics” enabled a memory
system to be operable with multiple different processors and could outperform prior art memory systems); SRI Int’l, Inc. v. Cisco Sys., Inc., 930 F.3d
1295, 1304 (Fed. Cir. 2019) (determining that claims
were not abstract because they “actually prevent the
normal, expected operation of a conventional computer network”).
But claim 1 is not directed to an improvement in
the functionality of sensors and processors. For example, the claim does not disclose any improvement
in the sensor’s ability to collect information, such as
collecting previously unknown information or collecting information more accurately. It does not disclose
some improvement in the processor itself, such as
faster or more powerful processing. Unlike in Thales,
claim 1 is not limited to any particular configuration
of the components that results in a technological improvement. Instead, the sensor and processor are
merely tools to execute an abstract idea; claim 1 does
not recite “any particular assertedly inventive technology” for collecting, analyzing, and transmitting
information. Elec. Power, 830 F.3d at 1354.
Indeed, claim 1 is analogous to and materially
indistinguishable from other claims that have failed
at step one because they were directed to collecting,
gathering, and transmitting information. See TDE

17a
Appendix B
Petroleum Data Sols., Inc., v. AKM Enter., Inc., 657
F. App’x 991, 992 (Fed. Cir. 2016), cert. denied, 137
S. Ct. 1230 (2017) (finding claims disclosing processes for (1) receiving data from sensors deployed on an
oil well drill, (2) validating the data, (3) determining,
based on the data, the present state of the oil well
drill, “e.g., drilling, sliding, or bore hole conditioning”
to be patent ineligible); Elec. Power, 830 F.3d at 1354
(concluding that claims disclosing processes for detecting events on an interconnected electric power
grid by collecting information from various sources,
analyzing this information to detect events in real
time, and displaying the event analysis results and
diagnoses were ineligible); SAP Am., Inc., 898 F.3d
at 1167 (concluding that claims focused on “selecting
certain information, analyzing it using mathematical
techniques, and reporting or displaying the results of
the analysis” were ineligible); Prism Techs. LLC v. TMobile USA, Inc., 696 F. App’x 1014, 1017 (Fed. Cir.
2017), cert. denied, 138 S. Ct. 689 (2018) (determining that claims disclosing “abstract process that includes: (1) receiving identity data from a device with
a request for access to resources; (2) confirming the
authenticity of the identity data associated with that
device; (3) determining whether the device identified
is authorized to access the resources requested; and
(4) if authorized, permitting access to the requested
resources” were ineligible); Accenture Global Servs.,
GmbH v. Guidewire Software, Inc., 728 F.3d 1336,
1339, 1346 (Fed. Cir. 2013) (finding claims that recite “applying … information related to the insurance transaction to rules to determine a task to be
completed” to be patent ineligible).

18a
Appendix B
B. Step Two
Having determined that claim 1 is directed to an
abstract idea, the Court proceeds to step two of the
Alice framework. There is no inventive concept in
the claim elements, whether considered individually
or as an ordered combination. Claim 1, as construed,
does not add any meaningful limitations to the routine steps of data collection, analysis, and transmission using conventional computer components.
Plaintiff “cannot argue that … receiving sensor
data, validating sensor data, or determining a state
based on sensor data is individually inventive.” TDE
Petroleum, 657 F. App’x at 993. These are the “most
ordinary of steps in data analysis and are recited in
the ordinary order,” so there is nothing inventive
about the ordered combination of these steps. Id.; see
also Elec. Power, 830 F.3d at 1354 (“The advance
[the claims] purport to make is a process of gathering and analyzing information of a specified content,
then displaying the results, and not any particular
assertedly inventive technology for performing those
functions.”). Claim 1 requires neither a new source
or type of information nor a new method of measuring information. It provides for an unspecified set of
rules for analyzing sensor data, but discloses no further details on those rules, like how data might be
evaluated for a child versus an adult.4 Compare SeClaim 1 provides for a processor that analyzes “sensed
dynamic and static accelerative phenomena as a function of at
least one accelerative event characteristic.” ‘796 patent at
13:53–56. As construed, this limitation simply means that the
processor applies some mathematical function to acceleration
4

19a
Appendix B
cured Mail Sols. LLC v. Universal Wilde, Inc., 873
F.3d 905, 910 (Fed. Cir. 2017), cert. denied, 138 S.
Ct. 2000 (2018) (“The claims generically provide for
the encoding of various data … but do not set out
how this is to be performed . . . [and] [n]o special
rules … are recited.”) with McRO, Inc. v. Bandai
Namco Games Am. Inc., 837 F.3d 1299, 1315 (Fed.
Cir. 2016) (finding a claim patent eligible where the
“claimed process uses a combined order of specific
rules that renders information into a specific format
that is then used and applied to create desired results”). In fact, Plaintiff argued during claim construction that claim 1 “does not contain words requiring any special type of processing.” (ECF No. 113
at 5). Claim 1 discloses outputting variables called
tolerance indicia, but “the mere fact that the inventor applied coined labels … does not make the underlying concept inventive.” Intellectual Ventures I LLC
v. Capital One Fin. Corp., 850 F.3d 1332, 1342 (Fed.
Cir. 2017). Overall, claim 1 encompasses a sensor
that senses data, a processor that processes data,
and a communications device that communicates data, and no further inventive concept is recited to
transform the abstract idea into a patent-eligible invention.
Plaintiff highlights features discussed in the
specification, such as how the claimed processor distinguishes “between normal and abnormal accelerative events, and, when an abnormal event is identidata collected from the sensor. That is not a meaningful limitation to supply an inventive concept.

20a
Appendix B
fied, to indicate whether the abnormal event is tolerable, or within tolerance.” ‘796 patent at 3:7–11. The
specification further discusses how the processor
may be programmed to distinguish “other physical
characteristics, including temperature, pressure,
force, sound, light, relative position, and the like.”
Id. at 3:11–14. But an inventive concept must be apparent in the claim language. Where “[t]he claim
language does not provide any specific showing of
what is inventive about the [limitation in question]
or about the technology used to generate and process
it,” the claim does not satisfy step two. Secured Mail,
873 F.3d at 912; see also Intellectual Ventures, 838
F.3d at 1322 (“The district court erred in relying on
technological details set forth in the patent’s specification and not set forth in the claims to find an inventive concept.”). Even if, for example, the preferred embodiment discloses what could arguably be
an inventive concept, claim 1 recites none of those
details or limitations.
In sum, claim 1 is invalid under 35 U.S.C. § 101.
It is directed to an abstract idea and fails to recite
any inventive concept sufficient to transform the abstract idea into a patent-eligible invention.
III. Alternative Motion for a New Trial
Under Rule 50(c)(1), the Court must conditionally rule on Defendant’s Motion for a New Trial:
If the court grants a renewed motion for
judgment as a matter of law, it must also
conditionally rule on any motion for a new
trial by determining whether a new trial

21a
Appendix B
should be granted if the judgment is later
vacated or reversed. The court must state
the grounds for conditionally granting or
denying the motion for a new trial.
Fed. R. Civ. P. 50(c)(1). If the court conditionally
grants a new trial and the appellate court finds that
the grant of judgment was in error, “the new trial
must proceed unless the appellate court orders otherwise.” Fed. R. Civ. P. 50(c)(2). If the court conditionally denies a new trial and the appellate court reverses judgment, “the case must proceed as the appellate court orders.” Id.
Under Rule 59(a), a court can grant a new jury
trial “for any reason for which a new trial has heretofore been granted in an action at law in federal
court.” Fed. R. Civ. P. 59(a)(1)(A). A court can grant
a new trial if it concludes that the verdict is against
the weight of the evidence, the damages awarded are
excessive, the trial was unfair, or prejudicial error
was committed in its course. Smith v. Transworld
Drilling Co., 773 F.2d 610, 613 (5th Cir. 1985) (citations omitted).
Defendant argues that a new trial is necessary
for the following reasons: (1) the jury’s verdict is
against the weight of the evidence, because no reasonable jury could have concluded claim 1 was valid
and infringed; (2) the Court erred in construing certain claims; (3) the jury was improperly presented
with resolving claim construction disputes; and (4)
the Court provided several erroneous instructions to
the jury. (ECF No. 357 at 40–44).

22a
Appendix B
The Court conditionally denies Defendant’s Motion for a New Trial. If the Court’s grant of judgment
as a matter of law is reversed on appeal, and the
Federal Circuit holds that Plaintiff is entitled to recover the damages awarded by the jury, the Court
cannot say that the verdict was against the weight of
the evidence. Further, the Court finds that it did not
err in construing claims, did not improperly task the
jury with resolving claim construction disputes, and
did not provide the jury with incorrect instructions.
IV. Attorneys’ Fees
Under 35 U.S.C. § 285, “the court in exceptional
cases may award reasonable attorney fees to the
prevailing party.” To the extent Defendant is considering moving for such fees, Defendant is advised that
the Court is extremely unlikely to find that this case
is exceptional for the purposes of § 285.
V. Conclusion
For the reasons stated above, the Court grants
Defendant’s Motion for Judgment as a Matter of
Law, conditionally denies Defendant’s alternative
Motion for New Trial, and denies Plaintiff’s Motion
for Entry of Judgment. The Court will enter judgment in favor of Defendant.
SO ORDERED.
January 17, 2020.

